                                                             Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Report with 15 Day                             Date:   July 26, 2004
           Congressional Hold
           SC-2004-071
                                                                    Reply to   JA-1
  From:                                                             Attn of:
           Alexis M. Stefani
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    See Audit Report Distribution List

           The attached report has been completed and issued to the Secretary, the Chief of
           Staff, the Assistant Secretary for Administration, and the House and Senate
           Appropriations Committees on July 26, 2004. However, as directed by Congress
           in the Committee Report accompanying the Department of Transportation
           Appropriations Act, the Office of Inspector General must “withhold from public
           distribution for a period of 15 days any final audit or investigative report, which
           was requested by the House or Senate Committees on Appropriations.”
           Therefore, we will not publicly release the report until 15 days after date of
           issuance, or unless otherwise made public by either the House or Senate
           Appropriations Committees.

           If I can answer any questions or be of further assistance, please feel free to
           contact me at (202) 366-1992 or the Deputy Assistant Inspector General for
           Hazardous Materials, Security, and Special Programs, Robin Hunt at
           (415) 744-3090.

           Attachment

                                                      #
   POLICY AND PROCEDURES
FOR LOCATING FEDERAL OFFICES
AND FACILITIES IN RURAL AREAS
     Department of Transportation

      Report Number: SC-2004-071
       Date Issued: July 23, 2004
           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Policy and Procedures for                 Date:    July 23, 2004
           Locating Federal Offices and Facilities in Rural
           Areas, Department of Transportation
           Report No. SC-2004-071

  From:    Alexis M. Stefani                                        Reply to
                                                                    Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Secretary for Administration

           This report presents the results of our audit of Department of Transportation
           (DOT) policy and procedures for locating Federal offices and facilities (facilities)
           in rural areas. Public Law 108-199, Consolidated Appropriations Act, 2004,
           requires each Inspector General submit to the Committees on Appropriations a
           report detailing what policies and procedures each department or agency has in
           place to give first priority to locating new facilities in rural areas, as directed by
           the Rural Development Act of 1972 (Act). We will provide a copy of this report
           to the Committees on Appropriations.


           RESULTS IN BRIEF
           DOT has had policy and procedures addressing requirements of the Act since
           1988. These procedures require, in part, that DOT’s “site selection studies and
           reports and real property approval requests … shall include a discussion of the
           considerations that were given to rural area locations.” DOT Operating
           Administrations acquired 32 new facilities, 9 rural and 23 urban, from
           June 1, 2003, through March 31, 2004. We found evidence that DOT considered
           rural areas for 19 (83 percent) of the 23 urban facilities. This was a significant
           improvement over last year, when we found specific documentation demonstrating
           that DOT considered rural areas for only 3 (14 percent) of 22 urban facilities.

           While Agency records for the four remaining urban facilities in this year’s report
           did not include a discussion of considerations given to rural locations, they
           indicated the urban sites were selected based on mission or program requirements.
                                                                                                2


Further, the process for locating the four facilities was underway well before
December 2003, when DOT’s Assistant Secretary for Administration—responding
to our prior report—issued a memorandum that encouraged Operating
Administrations to use a checklist or other tool to document considerations given
to rural areas. Two of the four facilities were acquired within 4 months prior to
the December 2003 memorandum; two were acquired within 4 months after the
memorandum. In conclusion, we consider DOT Operating Administrations to be
in substantial compliance with the Act and DOT Order 4320.1A. Nevertheless,
we recommend that the Assistant Secretary for Administration periodically
confirm continued compliance with DOT policy and procedures.


BACKGROUND
This is our third report to the Committees on Appropriations regarding DOT
compliance with the Act.1 The Act directs the heads of all Federal executive
departments and agencies to establish and maintain departmental policies and
procedures for giving first priority to locating new facilities in rural areas.
Likewise, Federal Management Regulations state that Federal agencies must give
first priority for new facilities to rural areas “unless their mission or program
requirements call for locations in an urban area.” A rural area is defined as a city,
town, or unincorporated area that has a population of no more than
50,000 inhabitants and is not immediately adjacent to a city of more than
50,000 inhabitants.

DOT Order 4320.1A, “Location of New Federal Offices and Other Facilities in
Rural Areas,” gives first priority to rural areas when locating new offices or other
facilities where personnel are assigned. This December 1988 order states “… site
selection studies and reports and real property approval requests … shall include a
discussion of the considerations that were given to rural area locations. If a rural
location is not selected, the reason should be explained.” DOT Order 1100.34A,
“Facility Acquisition, Expansion or Relocation,” includes decision criteria to be
used in selecting sites.

As for DOT’s adherence to policy and procedures, our first report, issued in
May 2002, disclosed that DOT did not specifically document considerations given
to rural sites for 24 (96 percent) of the 25 new facilities located in urban areas. In
comparison, our second report, issued in September 2003, disclosed that DOT did
not specifically document considerations given to rural sites for 19 (86 percent) of
the 22 new facilities located in urban areas. Responding to our second report,

1
    OIG Report Number SC-2003-088, “Policy and Procedures for Locating Federal Facilities in Rural
    Areas,” September 26, 2003, and OIG Report Number CC-2002-159, “DOT Compliance with Rural
    Development Act Site Location Requirements,” May 28, 2002.
                                                                                       3


DOT’s Assistant Secretary for Administration issued a memorandum in
December 2003 that encouraged Operating Administrations to use a checklist or
other tool to document considerations given to rural areas.


OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our audit were to determine (1) what DOT policies and
procedures are in place to give first priority to locating new facilities in rural areas,
as directed by the Act, and (2) if DOT adhered to established policies and
procedures when locating new Federal facilities. The audit covered the 32 new
facilities acquired by DOT Operating Administrations through purchase or lease
from June 1, 2003, through March 31, 2004. Exhibit A shows that 9 of these
facilities were located in rural areas, and 23 were located in urban areas.

We reviewed records and interviewed DOT officials to determine whether DOT
Operating Administrations documented considerations given to rural locations for
the 23 urban facilities. We performed a detailed review of Agency records located
in Washington, DC, for 12 of the 23 facilities. For the other 11 facilities, we
requested responsible Agency officials to provide us with documentation
demonstrating that first priority was given to rural locations. We performed our
audit during April and May 2004 in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States.


RESULTS
In addition to having policy and procedures that address requirements of the Act,
DOT generally documented considerations given to locating new facilities in rural
areas. During the period covered by this audit, DOT located 23 of its 32 new
facilities in urban areas. We found that DOT documented considerations given to
rural locations for 19 (83 percent) of those 23 facilities.

For the period covered by our current audit, the Federal Highway Administration
(FHWA) and the Research and Special Programs Administration (RSPA) did not
have specific documentation showing what, if any, considerations they gave to
rural locations for four facilities located in urban areas. While FHWA and RSPA
records indicated the four urban sites were selected based on mission or program
requirements, the records did not contain evidence or documentation referencing
requirements of DOT Order 4320.1A or the Act. Alone, statements that facilities
are located at urban sites for mission or program requirements do not meet DOT
policy and procedures.
                                                                                  4


However, FHWA and RSPA records show that site selection for the four facilities
(two FHWA and two RSPA) was underway well before December 2003, when
DOT’s Assistant Secretary for Administration issued a memorandum that
encouraged Operating Administrations to use a checklist or other tool to document
considerations given to rural areas.        The Assistant Secretary issued the
December 2003 guidance in response to our September 2003 report on this
subject. FHWA acquired its two facilities in November 2003 and February 2004,
while RSPA acquired its two facilities in August 2003 and March 2004. Based on
the results of our current review and discussions with FHWA and RSPA staff, we
consider DOT Operating Administrations to be in substantial compliance with the
Act and DOT Order 4320.1A.


RECOMMENDATION
We recommend that the Assistant Secretary for Administration periodically
confirm continued compliance with DOT policy and procedures for locating
Federal offices and facilities in rural areas.


ACTION REQUIRED
We provided a draft copy of this report to the Assistant Secretary for
Administration to obtain DOT views and comments. On July 13, 2004, DOT
concurred with the report’s finding and recommendation. DOT will provide a
detailed response to the final report, including specific actions and milestones for
implementing the recommendation.

In accordance with DOT Order 8000.1C, we would appreciate receiving your
detailed response within 30 calendar days. We appreciate the courtesies and
cooperation afforded us by DOT representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1992 or Ms. Robin
Hunt, Deputy Assistant Inspector General for Hazardous Materials, Security and
Special Programs, at (415) 744-3090.

                                         #
                                                                              5




EXHIBIT A. NEW DOT FACILITIES (JUNE 2003–
MARCH 2004)
                                                                     Urban/
       Property Name              Primary Use           Location
                                                                     Rural
Federal Aviation Administration
• Communications Facilities    Technical         Estherville, IA     Rural
• Weather Observatory          Administrative    Mays Landing, NJ    Rural
  Facility
• Hazardous Material Office    Administrative    Indianapolis, IN    Urban
• Temporary Airport Tower      Technical         Great Falls, MT     Urban
• Temporary Support Service    Administrative    Great Falls, MT     Urban
  Center
• Flight Standards District    Administrative    Atlanta, GA         Urban
  Office
• Remote Terminal Display      Technical         Hickory, NC         Rural
  System
• Standard Terminal            Administrative    Concord, NC         Urban
  Automation Replacement
  System
• Weather Observatory          Administrative    San Juan, PR        Urban
  Facility
• 242 Schooner Bay             Staff Residence   Christiansted, VI   Rural
• Weather Observatory          Administrative    Fort Worth, TX      Urban
  Facility
• Flight Standards District    Administrative    Baton Rouge, LA     Urban
  Office
• Administrative Building      Administrative    Alameda, CA         Urban
• Tower: Air Traffic Control   Technical         Vero Beach, FL      Rural
  Facility
• Tower: Base Building         Technical         Vero Beach, FL      Rural
• Environmental Support Unit   Technical         Vero Beach, FL      Rural
  Building
• Air Traffic Administration   Technical         Houston, TX         Urban
  Building
• Airway Facilities            Technical         Houston, TX         Urban
  Administration Building



Exhibit A. New DOT Facilities (June 2003–Mar ch 2004)
                                                                              6


                                                                      Urban/
      Property Name            Primary Use           Location
                                                                      Rural
Federal Highway Administration
• Division Office             Administrative   Sacramento, CA         Urban
• Division Office             Administrative   Tallahassee, FL        Urban
• Division Office             Administrative   Baltimore, MD          Urban
• Division Office             Administrative   Concord, NH            Rural

Federal Motor Carrier Safety Administration
• Service Center              Administrative   Glen Burnie, MD        Urban
• Division Office             Administrative   Baltimore, MD          Urban
• Division Office             Administrative   Tallahassee, FL        Urban
• Field Office                Administrative   King of Prussia, PA    Urban

Federal Railroad Administration
• Field Office                Administrative   North Platte, NE       Rural

Maritime Administration
• Cargo Ship Moorage          Technical        North Charleston, SC   Urban

Office of Inspector General
• Investigator Office         Administrative   King of Prussia, PA    Urban
• Investigator Office         Administrative   Washington, DC         Urban

Research and Special Programs Administration
• Pipeline Safety Office      Administrative   Washington, DC         Urban
• Hazardous Materials and     Administrative   Houston, TX            Urban
  Pipeline Safety Office
Summary                       Urban                    23
                              Rural                     9
                               Total                   32




Exhibit A. New DOT Facilities (June 2003–Mar ch 2004)
                                                          7




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                 Title

  Darren Murphy                        Program Director

  Jim Diecker                          Project Manager

  Jeffrey Mortensen                    Lead Auditor

  Deborah Kloppenburg                  Auditor

  Kathleen Huycke                      Writer-Editor




Exhibit B. Major Contributors to This Report
